No. 20-1210
IN THE

Supreme Court of the United States
SENECA COUNTY, NEW YORK,
Petitioner,
v.
CAYUGA INDIAN NATION OF NEW YORK,
Respondent.
CERTIFICATE OF SERVICE
I, David W. DeBruin, hereby certify that I am a member of the Bar of this Court,
and that I have this 3rd day of May 2021, caused a paper copy of the Brief in Opposition
to be delivered to the Court and an electronic version of the document to be delivered
to:
Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
Counsel for Seneca County, New York

/s/ David W. DeBruin
David W. DeBruin

